APPENDIX

APPENDIX
Opinion of the United States Court of Appeals for the Eleventh Circuit,
United States v. Jose Antonio Morales, No. 19-11934
(11th Cir. Feb. 5, 2021) ........................................................................... A-1
Judgment imposing sentence ................................................................ A-2

A-1

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

Evidence seized as result of illegal search
may not be used by government in subsequent
criminal prosecution.

987 F.3d 966
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Jose Antonio MORALES, Defendant - Appellant.

1 Cases that cite this headnote
[2]

No. 19-11934
|
(February 5, 2021)
Synopsis
Background: Defendant was convicted in the United States
District Court for the Southern District of Florida, No. 2:18cr-14056, Robin L. Rosenberg, J., of narcotics and firearms
offenses, and he appealed,

[3]

Criminal Law
Operation and extent of,
and exceptions to, the exclusionary rule in
general
Exclusionary rule applies only where its
application will, in fact, deter unreasonable
searches and seizures. U.S. Const. Amend. 4.

[4]

Criminal Law
Good Faith or Objectively
Reasonable Conduct Doctrine
That exclusionary rule should not apply, because
suppression of evidence will not deter future
Fourth Amendment violations, is especially clear
when officer acting with objective good faith
has obtained a search warrant from judge or
magistrate and acted within its scope. U.S. Const.
Amend. 4.

[2] while indictment charging defendant with being a felon
in unlawful possession of firearm and ammunition omitted
an element of his offense, in failing to allege that defendant
knew that he was a convicted felon, this deficiency was not
jurisdictional.
[5]

Affirmed.

Purpose of Exclusionary

Exclusionary rule is not a personal right, but
rather a prudential doctrine, whose sole purpose
is to deter future Fourth Amendment violations.
U.S. Const. Amend. 4.

Holdings: The Court of Appeals, Marcus, Circuit Judge, held
that:
[1] evidence discovered during warranted search of
defendant's residence did not have to be suppressed, even
assuming that magistrate judge erred in finding that small
amount of marijuana discovered during successive trash pulls
established probable cause, and

Criminal Law
Rule

Searches and Seizures
Reasonable Cause

Probable or

On application for search warrant, it is
magistrate's responsibility to determine whether
the officer's allegations establish probable cause
and, if so, to issue a warrant comporting in form
with the requirements of the Fourth Amendment.
U.S. Const. Amend. 4.

Jordan, Circuit Judge, filed opinion concurring in part and
concurring in the judgment.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.
West Headnotes (20)
[6]
[1]

Criminal Law
arrests

Searches, seizures, and

Criminal Law
Good Faith or Objectively
Reasonable Conduct Doctrine
Paradigmatic application of “good faith”
exception to exclusionary rule is to evidence

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

obtained in objectively reasonable reliance on
warrant, even if a court later invalidates the
warrant for lack of probable cause. U.S. Const.
Amend. 4.

[7]

Criminal Law

Particular cases

Evidence discovered during warranted search
of defendant's residence did not have to be
suppressed, even assuming that magistrate judge
erred in finding that small amount of marijuana
discovered during successive trash pulls from
defendant's residence established probable cause
for search warrant; officers executing the warrant
did everything that they should have done in
applying for warrant from a neutral magistrate
without attempting to mislead magistrate or
to withhold material information, and thus the
suppression of evidence would not deter future
unreasonable searches and seizures. U.S. Const.
Amend. 4.

[8]

Criminal Law
of proof

[11]

If there are no special circumstances precluding
application of “good faith” exception to the
exclusionary rule, court, in deciding whether
to suppress evidence obtained in a warranted
search, proceeds to determine whether the
executing officer reasonably relied upon the
search warrant. U.S. Const. Amend. 4.

Criminal Law

Review De Novo

Criminal Law
obtained

Evidence wrongfully

[12]

[13]

Searches and Seizures
Reasonable Cause

Probable or

Search warrant affidavit should state facts
sufficient to justify a conclusion that evidence
or contraband will probably be found at the
premises to be searched and should establish
a connection between the defendant and the
residence to be searched and a link between the
residence and any criminal activity. U.S. Const.
Amend. 4.

Criminal Law
Exceptions Relating to
Defects in Warrant
“Good faith” exception to exclusionary rule
applies in all but four limited sets of
circumstances: (1) where magistrate issuing the
warrant was misled by information in affidavit
which affiant knew was false, or would have

Criminal Law
Good Faith or Objectively
Reasonable Conduct Doctrine
Court must determine application of “good faith”
exception to the exclusionary rule on a case-bycase basis. U.S. Const. Amend. 4.

Court of Appeals reviews de novo whether
“good faith” exception to the exclusionary rule
applies, but underlying facts upon which that
determination is based are binding on appeal
unless clearly erroneous.

[10]

Criminal Law
Good Faith or Objectively
Reasonable Conduct Doctrine

Presumptions and burden

Government bears burden of demonstrating that
“good faith” exception to the exclusionary rule
applies.

[9]

known was false but for his reckless disregard
of truth; (2) where issuing magistrate wholly
abandoned his judicial role; (3) where affidavit
supporting warrant is so lacking in indicia of
probable cause as to render official belief in its
existence entirely unreasonable; and (4) where,
depending upon circumstances of particular case,
warrant is so facially deficient, in failing to
particularize the place to be searched or things
to be seized, that executing officers cannot
reasonably presume it to be valid. U.S. Const.
Amend. 4.

1 Cases that cite this headnote
[14]

Criminal Law
General

Necessity of Objections in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

There can be no plain error where the explicit
language of statute or rule does not specifically
resolve an issue, and where there is no precedent
from the Supreme Court or the Court of Appeals
directly resolving it.

[15]

Criminal Law
Determinative process;
matters or issues considered
When deciding whether an executing officer's
reliance on a search warrant was objectively
reasonable, as required for application of “good
faith” exception to the exclusionary rule, courts
review the entire record, including information
known to the executing officers that was
not presented in the initial search warrant or
application or affidavit. U.S. Const. Amend. 4.

[17]

Weapons
crime

Possession after conviction of

While indictment charging defendant with being
a felon in unlawful possession of firearm and
ammunition omitted an element of his offense,
in failing to allege that defendant knew that he
was a convicted felon, this deficiency was not
jurisdictional and did not require dismissal of
the felon-in-possession charge. 18 U.S.C.A. §
922(g)(1).
1 Cases that cite this headnote
[18]

Criminal Law

Review De Novo

Court of Appeals reviews questions of subject
matter jurisdiction de novo.

Indictments and Charging
Instruments
Defects in charging
instrument
Defect in indictment affects court's jurisdiction
only when it fails to allege an offense against the
United States.

Criminal Law
Exceptions Relating to
Defects in Warrant
“Good faith” exception to exclusionary rule
requires court to consider whether a reasonably
well-trained officer would know that search was
illegal despite magistrate's authorization. U.S.
Const. Amend. 4.

[16]

[19]

2 Cases that cite this headnote
[20]

Indictments and Charging
Instruments
Defects in charging
instrument
As long as the conduct described in indictment is
a criminal offense, the mere omission of element
of the crime charged does not vitiate court's
jurisdiction.
1 Cases that cite this headnote

Attorneys and Law Firms
*969 Brandy Brentari Galler, U.S. Attorney's Office, West
Palm Beach, FL, H. Ron Davidson, Emily M. Smachetti, U.S.
Attorney's Office, U.S. Attorney Service - Southern District
of Florida, Jason Wu, Assistant U.S. Attorney, U.S. Attorney
Service - SFL, Miami, FL, for Plaintiff-Appellee.
Michael Caruso, Federal Public Defender, Federal Public
Defender's Office, West Palm Beach, FL, for DefendantAppellant.
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 2:18-cr-14056-RLR-1
Before JORDAN, MARCUS, and GINSBURG, * Circuit
Judges.
Opinion
MARCUS, Circuit Judge
Based on evidence seized during a search of his home, Jose
Antonio Morales was convicted of possession of marijuana
with intent to distribute and of unlawful possession of a
firearm and ammunition. On appeal, Morales claims that
the affidavit supporting the search warrant -- which reported
that police had found a small amount of marijuana and
related items in trash outside Morales's house on two separate

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

occasions three days apart -- did not establish probable cause
to justify the search. We need not decide whether Morales is
correct, for even if he is (and this matter is hotly contested),
suppression of the fruits of the search would be inappropriate
under the good faith exception to the exclusionary rule. See
United States v. Leon, 468 U.S. 897, 922, 104 S.Ct. 3405, 82
L.Ed.2d 677 (1984).
The exclusionary rule exists to deter unreasonable searches,
but the police here did exactly what the Fourth Amendment
required of them: they obtained a warrant in good faith from
a neutral magistrate and reasonably relied on it. They had
no reason to believe that probable cause was absent despite
the magistrate's authorization. There is no evidence in this
record that the affidavit supporting the warrant misled the
magistrate or that it contained false information. The affidavit
was not lacking in indicia of probable cause so as to render the
executing officers’ belief in its existence unreasonable. Nor,
finally, was the warrant facially deficient because it failed
to particularize the place to be searched or the things to be
seized. All of that makes this case a clear application of the
good faith exception.
Morales also claims that the district court lacked subject
matter jurisdiction over the unlawful possession of a firearm
and ammunition charge because his indictment failed to allege
that he knew he was a convicted felon. But in United States v.
Moore, we held that such an omission is not a jurisdictional
defect. 954 F.3d 1322, 1336–37 (11th Cir. 2020). We therefore
affirm Morales's convictions.

I.
A.
Around May 15, 2018, the St. Lucie County Sherriff's Office
received an anonymous tip that Jose Antonio Morales was
selling narcotics out of his Fort Pierce, *970 Florida home.
That day -- trash pick-up day for the neighborhood -Detective Bryan Saliba and Detective Dietrich searched trash
cans located at the end of the driveway at Morales's singlefamily home. They found a plastic bag containing small
amounts of raw marijuana, and took these pictures:

Just three days later (the next trash pick-up day), Saliba and
another detective conducted another trash pull at Morales's
residence, which yielded “multiple burnt marijuana blunts”
and “multiple cut vacuum sealed plastic bags,” one of which
was labeled “Kush”:

Two weeks passed. Then, on June 1, Saliba applied for a
warrant to search Morales's home for evidence of illegal
marijuana possession or distribution. Saliba's supporting
affidavit recounted the trash-pull evidence, save for one
important detail: the affidavit made no mention of the
tip that Morales was selling drugs from his house. The
affidavit further explained that Saliba had been a Sheriff's
Deputy for three years and was then assigned as a detective.
Saliba averred that he had participated in 50 narcotics
investigations, worked drug cases at the street level, and
attended approximately 100 hours of narcotics investigation
training. He explained that based on his training and
experience, “the word ‘Kush’ is commonly used as a slang
word to describe marijuana/cannabis.” A St. Lucie County
Circuit Court judge granted the application that day and
issued a warrant to search Morales's home.
Another week passed before Saliba and other officers
executed the search warrant, on June 8. Though the trash pulls
had revealed just a handful of marijuana evidence, the search
of Morales's home turned up considerably more evidence
of illegal activity. Most significantly, the officers found a
loaded .45 caliber Kahr CW pistol, two boxes of ammunition,
and 972 grams of marijuana in a bedroom safe. In the kitchen,
they found five grams of marijuana, two marijuana pipes,
two marijuana grinders, plastic baggies, and a digital scale.
The officers discovered 86 grams of marijuana in the laundry
room and less than one gram of cocaine in a bedroom dresser.
Morales's girlfriend, who was present for the search (Morales

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

arrived on the scene later), claimed that the gun belonged to
her. Morales told the police that all the marijuana belonged to
him, that he used it only for personal consumption, and that
he possessed a medical marijuana card.

*971 B.
A federal grand jury in the Southern District of Florida
returned an indictment charging Morales with: (1) knowingly
possessing a firearm and ammunition after having been
convicted of a crime punishable by more than one year
in prison, in violation of 18 U.S.C. § 922(g)(1); and (2)
possession with intent to distribute a mixture and substance
containing a detectable amount of marijuana, in violation of
21 U.S.C. § 841(a)(1) and (b)(1)(D). Morales pled not guilty.
Before trial, Morales moved to suppress the evidence
recovered during the search of his home. He argued that
Saliba's affidavit did not establish probable cause because
it did not explain the reason for the trash pulls, reported
only minimal amounts of marijuana, and made no mention of
items linking the trash to Morales's residence. Morales also
claimed that the affidavit deliberately or recklessly contained
false information. Specifically, he alleged that the affidavit's
description of the evidence was false because not all the
evidence described appeared in the photographs submitted
with the affidavit, and that the affidavit improperly omitted
the fact that Morales's residence abutted an open lot where
neighborhood youth routinely used marijuana.

establish probable cause] without any other evidence.” Still,
since the affidavit recounted the discovery of evidence from
trash pulls on two separate days, she held that the affidavit
established probable cause that some items connected with
unlawful marijuana activity would be found in Morales's
home. Finally, the magistrate judge concluded that even if
there was not probable cause, the good faith exception to
the exclusionary rule applied to preclude suppression of the
fruits of the search. Morales filed objections to the Report and
Recommendation, but the district court adopted the Report in
full.
Morales proceeded to trial, where he stipulated that he had
been convicted of a felony offense before the date of his
charged firearm and ammunition possession. He called his
girlfriend as a witness, who testified that the pistol belonged
to her and that Morales had never held the gun because he
knew he was prohibited from doing so. Nevertheless, the jury
found Morales guilty on both counts.
The district court sentenced Morales to concurrent 84-month
sentences on each count and four years’ supervised release.
Morales's effective Sentencing Guidelines range was 120
months due to prior felony convictions for aggravated assault
and possession of marijuana with intent to distribute, but
the district court granted a downward variance. Morales's
presentence *972 investigation report (“PSI”) noted that the
police conducted the trash pulls based on an anonymous tip
-- the first time any information about this tip appeared in
the record. Morales did not object to this PSI fact. He timely
appealed the district court's judgment.

The magistrate judge presiding over the suppression motion
allowed limited testimony on the allegation that the affidavit
omitted the fact that the trash stood next to an open lot.
Detective Saliba testified that he did not know the field next to
Morales's home was a frequent venue for drug use. Saliba also
clarified that he found the trash cans at the end of Morales's
driveway on days scheduled for trash pick-up and that he
found the marijuana evidence within sealed trash bags, not
loose in the can.

We reject Morales's first claim on appeal -- that the district
court erred in denying his motion to suppress the evidence
found during the search of his home. Even if we assume
Saliba's affidavit did not establish probable cause, Saliba and
the other searching officers relied in good faith on the warrant.

Based on this testimony, the magistrate judge concluded
in her Report and Recommendation that the omission of
facts about the neighboring field had not been intentional or
reckless; nor did any inconsistency between the photographs
and the affidavit's description of the evidence show that the
description was false. The magistrate judge next observed
that the Eleventh Circuit had not decided “whether [a] small
amount[ ] of drugs found during a trash pull is sufficient [to

In the typical trash-pull case, trash-pull findings either
corroborate or draw corroboration from other evidence of
illegal activity in the home to be searched, such as reports
of drug activity in the home or maybe a resident's history
of criminal drug activity. See, e.g., United States v. Jones,
471 F.3d 868, 873 (8th Cir. 2006) (drug residue found in
two successive trash pulls combined with anonymous tip
reporting drug sales at the target address). Morales's case

II.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

falls within a rarer set: warrant applications whose case for
probable cause rises or falls on trash-pull evidence standing
alone. This species of affidavit is rare enough that we have not
passed upon its sufficiency. Our sister circuits have generally
held that an affidavit reporting a single trash pull that yielded
only a small amount of drug evidence does not establish
probable cause. See United States v. Lyles, 910 F.3d 787, 790,
794 (4th Cir. 2018); United States v. Abernathy, 843 F.3d 243,
246–47, 254–57 (6th Cir. 2016). Moreover, trash evidence
that does establish probable cause often includes documents
linking the trash to the target residence -- evidence that is
absent here. See, e.g., United States v. Montieth, 662 F.3d 660,
664–65 (4th Cir. 2011) (trash pull yielded bills addressed to
the defendant at the target residence).
On the other hand, some courts have concluded that trash pull
evidence can on its own support probable cause when a single
pull yields a great volume of evidence that clearly indicates
illegal drug activity or when police find a smaller quantity
of (perhaps less inculpatory) evidence over the course of
two successive trash pulls, thereby establishing a trend. See
United States v. Briscoe, 317 F.3d 906, 907–09 (8th Cir. 2003)
(single trash pull found “forty marijuana seeds and twentyfive marijuana stems”); United States v. Leonard, 884 F.3d
730, 734–35 (7th Cir. 2018) (“two trash pulls taken a week
apart, both testing positive for cannabis, [were] sufficient
standing alone to establish probable cause” where the trash
contained “sufficient indicia of residency”).
Morales's case lies somewhere in between. But we need not
decide the question of probable cause in order to resolve this
case. Even in the absence of probable cause, Morales is not
entitled to suppression because the officers reasonably relied
in good faith on a facially valid warrant.
[1] [2] [3] The Fourth Amendment prohibits unreasonable
searches but makes no mention of a remedy. U.S. Const.
amend. IV. The “judicially created” exclusionary rule fills
this gap by providing that generally, “[e]vidence seized as the
result of an illegal search may not be used by the government
in a subsequent criminal prosecution.” United States v.
Martin, 297 F.3d 1308, 1312 (11th Cir. 2002) (internal
quotation marks and citation omitted). The exclusionary rule
is not a personal right but rather a “prudential doctrine”
whose “sole purpose ... is to deter future Fourth Amendment
violations.” Davis v. United States, 564 U.S. 229, 236–37, 131
S.Ct. 2419, 180 L.Ed.2d 285 (2011) (internal quotation *973
marks and citations omitted). The rule therefore applies only
where its application will in fact deter “unreasonable searches

and seizures.” U.S. Const. amend. IV; Davis, 564 U.S. at
237, 131 S.Ct. 2419. A rule requiring suppression of evidence
seized in an unreasonable manner cannot -- and should not
-- deter an officer from “acting as a reasonable officer would
and should act in similar circumstances.” Leon, 468 U.S. at
920, 104 S.Ct. 3405 (internal quotation marks and citation
omitted). In such a case, “excluding the evidence will not
further the ends of the exclusionary rule in any appreciable
way.” Id. (internal quotation marks and citation omitted).
Thus, under the good faith exception to the exclusionary
rule, courts decline to suppress evidence when suppression
would not further the rule's deterrent purpose. See United
States v. Taylor, 935 F.3d 1279, 1289 (11th Cir. 2019), as
corrected (Sept. 4, 2019), cert. denied, ––– U.S. ––––, 140
S. Ct. 1548, 206 L.Ed.2d 384 (2020) (“To date, the Supreme
Court has applied the good-faith exception when, among
other things, officers reasonably relied on a warrant that
was later deemed invalid for lack of probable cause, on a
warrant that erroneously appeared outstanding due to an error
in a court or police database, on a statute that was later
deemed unconstitutional, and on a judicial decision that was
later overruled”) (citations omitted); see also United States
v. Green, 981 F.3d 945, 957 (11th Cir. 2020) (good faith
exception applied where officers reasonably relied on statecourt orders to conduct warrantless searches of historical cellsite and real-time tracking data five years before the Supreme
Court held such searches violated the Fourth Amendment
in Carpenter v. United States, ––– U.S. ––––, 138 S. Ct.
2206, 2217–19, 2221, 201 L.Ed.2d 507 (2018)); Taylor, 935
F.3d at 1279–88, 1291–93 (good faith exception applied to
reasonable reliance on a warrant that was “void at issuance”
due to the issuing magistrate's lack of jurisdiction where there
was “no indication that the ... officers sought to deceive the
magistrate judge or otherwise acted culpably or in a way that
necessitate[d] deterrence”).
[4] [5] [6] That suppression will not deter future Fourth
Amendment violations is especially clear “when an officer
acting with objective good faith has obtained a search
warrant from a judge or magistrate and acted within its
scope.” Leon, 468 U.S. at 920, 104 S.Ct. 3405. After
all, “[i]t is the magistrate's responsibility to determine
whether the officer's allegations establish probable cause
and, if so, to issue a warrant comporting in form with
the requirements of the Fourth Amendment.” Id. at 921,
104 S.Ct. 3405. It is beyond dispute that the law should
encourage officers to procure warrants before conducting
searches of the home, not discourage them from doing so.
“Penalizing the officer for the magistrate's error, rather than

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

his own, cannot logically contribute to the deterrence of
Fourth Amendment violations.” Id. For these reasons, the
paradigmatic application of the good faith exception is to
“evidence obtained in objectively reasonable reliance” on a
warrant, even if a court later invalidates the warrant for lack of
probable cause. See id. at 922, 104 S.Ct. 3405; United States
v. Robinson, 336 F.3d 1293, 1295, 1297 (11th Cir. 2003)
(good faith exception applied where there was “nothing in
the record to suggest [the officer's] reliance on the warrant
was objectively unreasonable,” even though the affidavit did
not establish probable cause because, among other things, it
included stale information and relied on trash pulls from a
“multi-family trash receptacle”); Martin, 297 F.3d at 1320
(good faith exception applied where issuing magistrate was
to blame for incorrectly finding probable cause based on an
affidavit that did *974 not include specific dates to establish
that the information was not stale, and the affiant officer relied
on the warrant in good faith and did not omit facts relevant
to probable cause).
[7] This case sits at the core of the good faith exception.
The officers did everything they should have. They obtained
and relied on a warrant from a neutral magistrate and had
no reason to think that probable cause was absent despite
the magistrate's authorization. They did not mislead the
magistrate or withhold material information. Therefore, even
if we assume that the magistrate erred in finding probable
cause, suppressing the evidence found during the search of
Morales's home would do nothing to deter future police
misconduct. All that it would do is prevent a factfinder from
considering competent and probative evidence of criminal
wrongdoing. The district court was correct to hold that
the good faith exception barred suppression of the seized
evidence.

that the affiant knew was false or would have known was
false except for his reckless disregard of the truth; (2) where
the issuing magistrate wholly abandoned his judicial role ...;
(3) where the affidavit supporting the warrant is so lacking
in indicia of probable cause as to render official belief in
its existence entirely unreasonable; and (4) where, depending
upon the circumstances of the particular case, a warrant is
so facially deficient -- i.e., in failing to particularize the
place to be searched or the things to be seized -- that
the executing officers cannot reasonably presume it to be
valid.” Martin, 297 F.3d at 1313 (internal quotation marks
and citations omitted). If none of these four circumstances
exists, we proceed to determine whether the executing officer
“reasonably relied upon the search warrant.” Id. at 1318.
This case does not implicate any of these four scenarios. There
is no indication that the affidavit contained any falsehoods
that misled the issuing magistrate. In fact, the district court
held that Saliba did not intentionally or recklessly include
false or misleading information or omit relevant facts, and
Morales does not argue otherwise on appeal. Nothing in the
record suggests the magistrate wholly abandoned his judicial
role by, for example, accompanying the officers executing
the search, failing to read the warrant, or neglecting to
independently assess probable cause. See id. at 1316–17. Nor
was the warrant facially deficient: it particularized the place to
be searched (Morales's precise address) and listed the things
to be seized (controlled substances and related materials).

*975 [12]
[13] Indeed, the only exception to the good
faith rule that Morales argues about is the third one: “where
the affidavit supporting the warrant is ‘so lacking in indicia
of probable cause as to render official belief in its existence
entirely unreasonable.’ ” Id. at 1313 (citation omitted). But
this case is not an iteration of that circumstance. While we
must determine this exception's application “on a case-bycase basis,” “we have guidelines which help us determine
A.
what critical information should be included in a search
[8] [9] The government bears the burden of demonstrating warrant affidavit to establish a finding of probable cause”: the
affidavit should “state facts sufficient to justify a conclusion
that the good faith exception applies. 2 See Robinson, 336
that evidence or contraband will probably be found at the
F.3d at 1297. We review de novo whether the good faith
premises to be searched” and should “establish a connection
exception applies, “but the underlying facts upon which that
between the defendant and the residence to be searched and
determination is based are binding on appeal unless clearly
a link between the residence and any criminal activity.” Id. at
erroneous.” Id. at 1295 (internal quotation marks and citation
1313–14 (internal quotation marks and citations omitted); see
omitted).
also Illinois v. Gates, 462 U.S. 213, 238, 103 S.Ct. 2317, 76
L.Ed.2d 527 (1983) (probable cause exists when “there is a
[10] [11] The good faith exception “applies in all but four
fair probability that contraband or evidence of a crime will be
limited sets of circumstances”: “(1) where the magistrate ...
found in a particular place”).
issuing a warrant was misled by information in an affidavit

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

As for a probability of finding evidence or contraband, the
affidavit recounted two trash pulls that yielded evidence of
illegal drug possession in the residence. To be sure, the
affidavit did not list especially voluminous evidence: a plastic
bag containing raw marijuana, multiple burnt blunts, and
multiple cut vacuum sealed plastic bags, one of which bore the
label “Kush.” The affidavit did not specify how many vacuum
bags there were or how much marijuana was in the plastic bag;
if the photographs included in the affidavit depicted the full
extent of the evidence, there were only a few vacuum sealed
bags and a few marijuana stems. Even so, the warrant cited
Fla. Stat. § 893.13, which criminalizes the mere possession of
marijuana (in addition to possession with intent to distribute,
sale of marijuana, etc.). Thus, the affidavit did not need to
establish a fair probability that Morales's residence housed
a marijuana distribution operation, rather merely that some
marijuana would be found there.
Critically, the affidavit recounted that Detective Saliba found
marijuana evidence in Morales's trash on two separate
occasions. As the Seventh Circuit has observed, “[w]hile
one search turning up marijuana in the trash might be a
fluke, two indicate a trend.” Leonard, 884 F.3d at 734;
compare State v. Jacobs, 437 So. 2d 166, 168 (Fla. Dist.
Ct. App. 1983) (“The fact that marijuana and cannabis
seeds were found on two separate occasions within one
month's time suggests a continuing violation of the drug laws
and indicates a fair probability that marijuana or cannabis
would be found in the house.”) (internal quotation marks
omitted) with Raulerson v. State, 714 So. 2d 536, 537 (Fla.
Dist. Ct. App. 1998) (single trash pull yielding a small
volume of marijuana evidence did “not suggest a pattern of
continuous drug activity”). The affidavit reported that the
trash pulls occurred three days apart. While this timeframe
might suggest the marijuana came from an isolated incident
within the three-day period, it also could indicate a recurring
frequency of marijuana use. The warrant further disclosed
that the affiant was “familiar with the manner in which drugs
are packaged, stored, and distributed,” having worked 50
narcotics investigations, attended approximately 100 hours of
narcotics training courses, and worked drug cases at the street
level. Thus, the affidavit was not so bare that the executing
officers’ belief that Morales's home contained evidence of
illegal drug activity was “entirely unreasonable.” Martin, 297
F.3d at 1313 (internal quotation marks and citation omitted).
*976 [14] Morales objects that the trash pulls described in
the affidavit were two weeks old by the time the magistrate

issued the warrant. Since Morales did not raise this staleness
challenge in his motion to suppress, our review on this point
is for plain error. United States v. Young, 350 F.3d 1302,
1305 (11th Cir. 2003). “It is the law of this circuit that, at
least where the explicit language of a statute or rule does not
specifically resolve an issue, there can be no plain error where
there is no precedent from the Supreme Court or this Court
directly resolving it.” United States v. Lejarde-Rada, 319 F.3d
1288, 1291 (11th Cir. 2003). There is no Supreme Court or
Eleventh Circuit case holding that marijuana evidence found
in two trash pulls conducted three days apart becomes stale
after two weeks. On plain error review, the elapse of two
weeks between the trash pulls and the warrant application
did not render the executing officers’ belief in probable cause
unreasonable.
The affidavit also contained at least some evidence linking
Morales, his home, and the evidence of illegal drug activity. It
averred that Morales resided at the target residence, described
the searched trash cans as “the trash container of [the]
target residential unit,” and stated that the officers found
the cans to be “specific to the target unit- located at the
northwest portion of the property” “next to the roadway.”
Thus, the affidavit explained that the searched cans were
associated with Morales's house. The affidavit also contained
a photograph of the home, which appears to portray a singlefamily unit (though the affidavit did not expressly describe
it as such). While this evidence may or may not have
been enough to tie the trash to the residence for probable
cause purposes, the executing officers could reasonably have
believed there was a “fair probability” that the trash in a can
placed at the edge of a single-family home's property came
from that home. Gates, 462 U.S. at 238, 103 S.Ct. 2317.
All told, setting aside whether the affidavit actually
established probable cause, it was not so lacking in indicia
of probable cause that it provided “no hint” as to why the
police believed they would find incriminating evidence in the
residence. Martin, 297 F.3d at 1314 (internal quotation marks
and citation omitted).

B.
Since none of the exceptions to the Leon good faith rule apply,
we proceed to determine whether Detective Saliba's reliance
on the warrant was objectively reasonable. It was.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

[15] [16] “The good faith exception requires the court to
consider whether a reasonably well-trained officer would
know that the [search] was illegal despite the magistrate's
authorization.” Id. at 1318. In reviewing whether an officer's
reliance on a warrant was objectively reasonable, we review
the entire record, including information known to the
executing officers “that was not presented in the initial search
warrant or application or affidavit.” Id.
As just described, the affidavit linked the trash to Morales's
residence and provided some evidence of repeated drug
activity in the home. Two other sets of facts not listed in the
affidavit, but known to Saliba at the time of the warrant's
execution, bolster the reasonableness of Saliba's reliance on
the warrant. The first set concerns the link between the
evidence and the home. Detective Saliba testified at the
suppression hearing that he found the trash cans “in front of
the residence at the end of the driveway” on “trash day for
the neighborhood.” He further testified that the cans “were
at the end of the driveway, to the northwest of the driveway
directly *977 in front of the residence,” which he clarified
was “a single family home.” The cans were “[c]onnected to
the driveway in front of the residence.” Saliba explained that
the neighborhood layout was “standard, I guess, houses next
door to each other.” Other houses had their own trash cans
placed in front of the homes. This testimony fairly confirms
the inference, already evident from the affidavit, that the
searched cans were for the use of the Morales home only.
Trash cans set out in front of single-family homes on trash
day typically contain trash drawn from those homes.
Moreover, and equally significant, Detective Saliba testified
that he found the marijuana evidence within tied-up trash bags
in the cans; the evidence was not loose in the can. This sharply
minimized the chance that some passerby (like teenagers in
the nearby vacant lot), rather than a resident of Morales's
home, tossed the incriminating material into the trash.
The second set speaks to the likelihood of ongoing drug
activity within Morales's home. Saliba's testimony that both
trash pulls were conducted on trash pick-up day suggests
that the marijuana found on the two days reflected separate
instances of marijuana use rather than a single outlier event,
such as discarding of refuse from a house party. Additionally,
Morales's PSI states that the St. Lucie County Sheriff's Office
conducted the trash pulls based on an anonymous tip that
Morales was selling narcotics from his home. 3 Morales did
not object to this fact, so he has admitted it. Cf. United
States v. Beckles, 565 F.3d 832, 844 (11th Cir. 2009) (“Facts

contained in a PSI are undisputed and deemed to have been
admitted unless a party objects to them before the sentencing
court with specificity and clarity.”) (internal quotation marks
and citation omitted). Rather than disputing the existence of
the tip, Morales suggests that there is no evidence Saliba
knew about this tip. However, the PSI relates that the Sheriff's
Office conducted the trash pulls “[b]ased on” the tip. Since
Detective Saliba conducted the trash pulls as an agent of the
Sheriff's Office, he likely knew the reason for the pulls. And
while Morales is right that there is nothing to suggest this tip
was reliable, Saliba's likely awareness of the tip combined
with the other facts he knew strengthens the conclusion that
he executed the warrant in good faith.
Far from suggesting that a well-trained officer “would
have known that the search was illegal despite the judge's
authorization,” Martin, 297 F.3d at 1320, the entire record
establishes that Saliba's reliance on the warrant was
objectively reasonable. The district court therefore properly
denied Morales's motion to suppress the fruits of the search
of his home.

III.
[17] Morales next claims Count One of his indictment (the
felon-in-possession count) must be dismissed in light of
Rehaif v. United States, ––– U.S. ––––, 139 S. Ct. 2191, 204
L.Ed.2d 594 (2019). In Rehaif, the Supreme Court recently
held that to secure a felon-in-possession conviction under 18
U.S.C. §§ 922(g) and 924(a)(2), the government must prove
not only that the defendant knew he possessed a firearm or
ammunition, but also that he knew “of his status as a person
barred from possessing *978 a firearm” or ammunition. 4
139 S. Ct. at 2195. 5 Morales's indictment did not allege that
he knew of his status as a member of a class of persons
prohibited from possessing firearms and ammunition (that is,
that he knew he had been convicted of a crime punishable
by imprisonment for a term greater than one year). 6 See 18
U.S.C. § 922(g)(1).
[18] Morales claims that the omission of the knowledgeof-status element caused the indictment to fail to charge
a federal criminal offense, thereby depriving the district
court of subject matter jurisdiction under 18 U.S.C. § 3231
(“The district courts of the United States shall have original
jurisdiction, exclusive of the courts of the States, of all
offenses against the laws of the United States.”). While an

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

indictment's omission of an element of an offense does not
strip the district court of jurisdiction, United States v. Brown,
752 F.3d 1344, 1353–54 (11th Cir. 2014), the district court
would lack subject matter jurisdiction if the indictment failed
to charge conduct that amounts to an offense against the laws
of the United States, United States v. Moore, 954 F.3d 1322,
1333 (11th Cir. 2020). Morales argues that after Rehaif, an
indictment charging a violation of § 922(g) that does not
allege knowledge of prohibited status does not charge an
offense against the United States. He contends that Rehaif
rendered § 922(g) a non-self-executing provision that does
not by itself define a criminal offense. Section 924(a)(2), he
reasons, adds the knowledge element that makes prohibited
firearm possession a federal crime. We review questions of
subject matter jurisdiction de novo. United States v. Iguaran,
821 F.3d 1335, 1336 (11th Cir. 2016) (per curiam).
Three recent decisions of this Court foreclose Morales's
argument. In United States v. Moore, we rejected the
defendants’ argument that “because their indictments failed
to allege their knowledge of their felon status, the indictment
failed to allege a crime, depriving the district court of
jurisdiction.” 954 F.3d at 1332. Like Morales's indictment, the
defendants’ indictments cited and tracked the text of § 922(g)
(1) but did not cite § 924(a)(2) or mention the knowledge-ofstatus element. *979 Id. at 1332–33 (“DERRICK MILLER
and BERNARD MOORE, having been previously convicted
of a crime punishable by imprisonment for a term exceeding
one year, did knowingly possess a firearm and ammunition
in and affecting interstate and foreign commerce, in violation
of Title 18, United States Code, Section 922(g)(1).”) We
read Rehaif to have interpreted § 922(g) itself as including a
knowledge-of-status element, not as having held that § 922(g)
is a non-criminal provision that § 924(a)(2) incorporates to
create a criminal offense. Id. at 1333.

Since the text of § 922(g) implies a knowledge-of-status
element, an indictment that tracks this text sufficiently states
a crime against the United States. Id. at 1333, 1336–37.
The Moore indictment alleged violations of § 922(g), a
criminal offense, so it was sufficient to confer subject matter
jurisdiction. “Reading this knowledge requirement into the
statute while also holding that indictments tracking the
statute's text are insufficient would be incongruous. Although
the government may be well advised to include such mens rea
allegations in future indictments, that language is not required
to establish jurisdiction.” Id. at 1333.
Our holding in Moore that an indictment materially
similar to Morales's was not jurisdictionally deficient after
Rehaif forecloses any holding that the district court lacked
jurisdiction over Morales's case. See also United States v.
McLellan, 958 F.3d 1110, 1118 (11th Cir. 2020) (relying on
Moore to reject an argument that a § 922(g)(1) indictment
was jurisdictionally defective because it failed to include
a knowledge-of-status element and holding that “there is
no jurisdictional defect if an indictment merely fails to
include that the defendant knowingly committed the crime
but otherwise clearly alleges the unlawful conduct that
the defendant is accused of committing”); United States v.
Innocent, 977 F.3d 1077, 1084 (11th Cir. 2020) (relying on
Moore and McClellan to reject an identical argument).
For all these reasons, we AFFIRM the judgment of the
district court.

JORDAN, Circuit Judge, concurring in part and concurring
in the judgment.
I join the court's opinion as to all but Part II.B. As to Part
II. B, I concur only in the judgment because I would not
consider the anonymous tip purportedly received by law
[19]
[20] After reviewing the case law on indictment enforcement prior to the trash pulls. First, the police officers
did not mention the tip in the affidavit they submitted to
defects, we identified a distinction between cases in which the
obtain the search warrant. Second, the government did not
indictment affirmatively alleges conduct that is not a crime
disclose the tip in arguing the good-faith exception in its
and cases in which the indictment merely omits an element of
response to Mr. Morales’ motion to suppress, even though Mr.
a valid offense. “Ultimately,” we concluded, “the law is clear:
Morales had argued that the officers should have provided
the omission of an element in an indictment does not deprive
more information to establish probable cause. See D.E. 29
the district court of subject matter jurisdiction. A defective
at 14-18. Third, neither the magistrate judge nor the district
indictment only affects jurisdiction when it fails to allege
court relied on the tip in ruling on the motion to suppress.
an offense against the United States. So long as the conduct
See D.E. 37 at 11-13; D.E. 42 at 3-4. Fourth, the existence of
described in the indictment is a criminal offense, the mere
the tip only became known when the probation *980 office
omission of an element does not vitiate jurisdiction.” Id. at
prepared the pre-sentence investigation report.
1336.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Morales, 987 F.3d 966 (2021)
28 Fla. L. Weekly Fed. C 2406

Given that the government bore the burden of establishing
the good-faith exception, it had the responsibility to bring the
tip to the attention of the magistrate judge and the district
court when the motion to suppress was being litigated. It did
not do so, and now should not benefit from its failure. But
even without the tip, the officers’ reliance was objectively

reasonable, and so I concur in the application of the goodfaith exception.
All Citations
987 F.3d 966, 28 Fla. L. Weekly Fed. C 2406

Footnotes
*
2

3

4

5
6

Honorable Douglas H. Ginsburg, United States Circuit Judge for the District of Columbia Circuit, sitting by
designation.
Morales correctly complains that the magistrate judge improperly assigned the burden on this issue to the
defense, though it is less clear that the district court made the same error during its de novo review of the
Report and Recommendation. While Morales did object to the Report and Recommendation's good faith
conclusion, he did not specifically note the magistrate's burden shifting as a ground for his objection, and
therefore forfeited this argument. See Fed. R. Crim. P. 59(a); 11th Cir. R. 3-1. In any event, our own review
is de novo, and we affirm that the burden lies with the government.
Specifically, the PSI reads:
On or before, May 15, 2018, law enforcement received information from an anonymous source who
stated the defendant, Jose Antonio Morales, was selling narcotics from his residence located at [Morales's
address].... Based on the anonymous information, the St. Lucie County Sheriff's Office (SLCSO) conducted
two trash pulls.
Section 922(g)(1) provides that it “shall be unlawful for any person ... who has been convicted in any court of,
a crime punishable by imprisonment for a term exceeding one year ... to ... possess in or affecting commerce,
any firearm or ammunition.” 18 U.S.C. § 922(g)(1). Section 924(a)(2) provides that “[w]hoever knowingly
violates subsection (a)(6), (d), (g), (h), (i), (j), or (o) of section 922 shall be fined as provided in this title,
imprisoned not more than 10 years, or both.” 18 U.S.C. § 924(a)(2). In Rehaif, which dealt with a prosecution
for possessing a firearm as an alien illegally or unlawfully present in the United States under 18 U.S.C. §
922(g)(5), the Supreme Court relied on the text of §§ 922(g) and 924(a)(2) and on the interpretive presumption
in favor of scienter to hold that the government must prove that the defendant knew of his status as a member
of a group which § 922(g) prohibits from possessing firearms and ammunition. 139 S. Ct. at 2194–97.
The Supreme Court decided Rehaif while Morales's direct appeal was pending, so it applies to his case.
Griffith v. Kentucky, 479 U.S. 314, 328, 107 S.Ct. 708, 93 L.Ed.2d 649 (1987).
The relevant count, Count One, reads this way:
On or about June 7, 2018, in St. Lucie County, in the Southern District of Florida, the defendant, JOSE
ANTONIO MORALES, having been previously convicted of a crime punishable by imprisonment for a term
exceeding one year, did knowingly possess a firearm and one or more rounds of ammunition, to wit, one (1)
Kahr CW, .45 caliber pistol, and .45 caliber ammunition, in and affecting interstate and foreign commerce,
in violation of Title 18, United States Code, Section 922(g)(1).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

A-2

Case 2:18-cr-14056-RLR Document 87 Entered on FLSD Docket 05/01/2019 Page 1 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 6

UNITED STATES DISTRICT COURT
Southern District of Florida
Fort Pierce Division

UNITED STATES OF AMERICA
v.
JOSE ANTONIO MORALES

JUDGMENT IN A CRIMINAL CASE
Case Number: 2:18-CR-14056-001
USM Number: 595-32-7620
Counsel For Defendant: James Stewart Lewis, Jr.
Counsel For The United States: Marton Gyires
Court Reporter: Pauline Stipes

The defendant was found guilty on count(s) 1-2 of the Information of the indictment.
The defendant is adjudicated guilty of these offenses:
OFFENSE
ENDED

TITLE & SECTION

NATURE OF OFFENSE

18:922(g)(1) and 924
(a)(2)

Possession of a firearm and ammunition by a convicted
09/13/2018
felon

21:841(a)(1), (b)(1)(D) and
Possession with intent to distribute marijuana
851

09/13/2018

COUNT
1
2

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.
All remaining counts are dismissed on the motion of the government.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States attorney
of material changes in economic circumstances.

Date of Imposition of Sentence: 4/30/2019

____________________________________________
Robin L. Rosenberg
United States District Judge

Date: ________4/30/2019_______________________

Case 2:18-cr-14056-RLR Document 87 Entered on FLSD Docket 05/01/2019 Page 2 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: JOSE ANTONIO MORALES
CASE NUMBER: 2:18-CR-14056-001
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 84 months as to counts one and two to run concurrently with each other and concurrently with
any sentence yet to be imposed in case 18-1556CF.
The court makes the following recommendations to the Bureau of Prisons: that the defendant be
incarcerated in Coleman, Florida, or, in a facility in or as close to South Florida as possible. The Court
further recommends that the defendant be permitted to participate in
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

Case 2:18-cr-14056-RLR Document 87 Entered on FLSD Docket 05/01/2019 Page 3 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: JOSE ANTONIO MORALES
CASE NUMBER: 2:18-CR-14056-001
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 4 years as to counts one and
two to run concurrently.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with
the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

The defendant shall not leave the judicial district without the permission of the court or probation officer;
The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
The defendant shall support his or her dependents and meet other family responsibilities;
The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person
convicted of a felony, unless granted permission to do so by the probation officer;
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without
the permission of the court; and
As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

Case 2:18-cr-14056-RLR Document 87 Entered on FLSD Docket 05/01/2019 Page 4 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: JOSE ANTONIO MORALES
CASE NUMBER: 2:18-CR-14056-001
SPECIAL CONDITIONS OF SUPERVISION
Employment Requirement - The defendant shall maintain full-time, legitimate employment and not be
unemployed for a term of more than 30 days unless excused for schooling, training or other acceptable reasons.
Further, the defendant shall provide documentation including, but not limited to pay stubs, contractual
agreements, W-2 Wage and Earnings Statements, and other documentation requested by the U.S. Probation
Officer.
Permissible Search - The defendant shall submit to a search of his/her person or property conducted in a
reasonable manner and at a reasonable time by the U.S. Probation Officer.
Self-Employment Restriction - The defendant shall obtain prior written approval from the Court before entering
into any self-employment.
Substance Abuse Treatment - The defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include
inpatient/outpatient treatment. The defendant will contribute to the costs of services rendered (co-payment) based
on ability to pay or availability of third party payment.

Case 2:18-cr-14056-RLR Document 87 Entered on FLSD Docket 05/01/2019 Page 5 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: JOSE ANTONIO MORALES
CASE NUMBER: 2:18-CR-14056-001
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$200.00

Fine
$0.00

Restitution
$0.00

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or percentage payment column below. However, pursuant to
18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.
NAME OF PAYEE

TOTAL LOSS*

RESTITUTION ORDERED

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.
**Assessment due immediately unless otherwise ordered by the Court.

Case 2:18-cr-14056-RLR Document 87 Entered on FLSD Docket 05/01/2019 Page 6 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: JOSE ANTONIO MORALES
CASE NUMBER: 2:18-CR-14056-001
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A. Lump sum payment of $200.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the
U.S. Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
(INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The Government shall file a preliminary order of forfeiture within 3 days.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

